No. 20-5904
IN THE SUPREME COURT OF THE UNITED STATES
TARAHRICK TERRY, PETITIONER
v.
UNITED STATES OF AMERICA
___________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MOTION OF THE UNITED STATES FOR LEAVE TO FILE OUT OF TIME AND
BRIEF FOR THE UNITED STATES, via e-mail and first-class mail, postage prepaid, this
31st day of March 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 11,065 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on March 31, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
March 31, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If
that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-5904
TERRY, TARAHRICK
USA

ANDREW LEE ADLER
FEDERAL PUBLIC DEFENDER'S OFFICE
ONE EAST BROWARD BLVD.
STE. 1100
FORT LAUDERDALE, FL 33301
ANDREW_ADLER@FD.ORG
LOREN L. ALIKHAN
OFFICE OF THE ATTORENY GENERAL FOR
DC
400 6TH STREET, NW
SUITE 8100
WASHINGTON , DC 20001
202-727-6287
LOREN.ALIKHAN@DC.GOV
MIRIAM BECKER-COHEN
1200 18TH STREET, NW
SUITE 501
WASHINGTON, DC 20036
202-296-6889
MIRIAM@THEUSCONSTITUTION.ORG
202-296-6895(Fax)
JENNESA CALVO-FRIEDMAN
AMERICAN CIVIL LIBERTIES UNION
125 BROAD ST.
NEW YORK, NY 10004
646-885-8347
JCALVO-FRIEDMAN@ACLU.ORG

GERARD J. CEDRONE
GOODWIN PROCTER LLP
100 NORTHERN AVENUE
BOSTON, MA 02210
617 570 1849
GCEDRONE@GOODWINLAW.COM
DAVID D. COLE
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
915 15TH STREET, NW
WASHINGTON, DC 20005
212-549-2611
DCOLE@ACLU.ORG
BRIANNE J. GOROD
CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18TH ST., NW
SUITE 501
WASHINGTON, DC 20036
202-296-6889
BRIANNE@THEUSCONSTITUTION.ORG
MARISA MALECK
KING & SPALDING
1700 PENNSYLVANIA AVENUE, NW
2ND FLOOR
WASHINGTON, DC 20006
202-341-6492
MMALECK@KSLAW.COM
ADAM K. MORTARA
125 WACKER DRIVE
SUITE 300
CHICAGO, IL 60606
773-750-7154
ADAM@MORTARALAW.COM

MICHAEL PEPSON
AMERICANS FOR PROSPERITY
1310 N. COURTHOUSE ROAD
SUITE 700
ARLINGTON, VA 22201
MPEPSON@AFPHQ.ORG
ZACHARY C. SCHAUF
JENNER & BLOCK LLP
1099 NEW YORK AVE., N.W.
SUITE 900
WASHINGTON, DC 20001
202-639-6000
ZSCHAUF@JENNER.COM
JOSHUA C. TOLL
KING & SPALDING LLP
1700 PENNSYLVANIA AVE. NW
WASHINGTON, DC 20006
202-737-0500
JTOLL@KSLAW.COM

